<html>
<title> - OVERSIGHT HEARING ON THE IMPACTS OF THE OBAMA CEQ'S FINAL GUIDANCE FOR GHG EMISSIONS AND THE EFFECTS OF CLIMATE CHANGE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]










 THE IMPACTS OF THE OBAMA CEQ'S FINAL GUIDANCE FOR GHG EMISSIONS AND 
                     THE EFFECTS OF CLIMATE CHANGE

=======================================================================

                           OVERSIGHT HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                     Wednesday, September 21, 2016

                               __________

                           Serial No. 114-52

                               __________

       Printed for the use of the Committee on Natural Resources



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]







         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

21-615 PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
Louie Gohmert, TX                    Madeleine Z. Bordallo, GU
Doug Lamborn, CO                     Jim Costa, CA
Robert J. Wittman, VA                Gregorio Kilili Camacho Sablan, 
John Fleming, LA                         CNMI
Tom McClintock, CA                   Niki Tsongas, MA
Glenn Thompson, PA                   Pedro R. Pierluisi, PR
Cynthia M. Lummis, WY                Jared Huffman, CA
Dan Benishek, MI                     Raul Ruiz, CA
Jeff Duncan, SC                      Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Doug LaMalfa, CA                     Debbie Dingell, MI
Jeff Denham, CA                      Ruben Gallego, AZ
Paul Cook, CA                        Lois Capps, CA
Bruce Westerman, AR                  Jared Polis, CO
Garret Graves, LA                    Wm. Lacy Clay, MO
Dan Newhouse, WA                     Vacancy
Ryan K. Zinke, MT
Jody B. Hice, GA
Aumua Amata Coleman Radewagen, AS
Thomas MacArthur, NJ
Alexander X. Mooney, WV
Cresent Hardy, NV
Darin LaHood, IL

                       Jason Knox, Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                  Sarah Lim, Democratic Chief Counsel
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                  
                                 ------                                

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, September 21, 2016....................     1

Statement of Members:

    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     1
        Prepared statement of....................................     3
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5

Statement of Witnesses:

    Goldfuss, Hon. Christy, Managing Director, Council on 
      Environmental Quality, The White House, Washington, DC.....     7
        Prepared statement of....................................     8

Additional Materials Submitted for the Record:

    Congress of the United States, April 27, 2015 Letter to 
      Christy Goldfuss, Managing Director, Council on 
      Environmental Quality......................................    24
    Open Letter Regarding Climate Change from Concerned Members 
      of the U.S. National Academy of Sciences, September 20, 
      2016.......................................................     5
 
OVERSIGHT HEARING ON THE IMPACTS OF THE OBAMA CEQ'S FINAL GUIDANCE FOR 
            GHG EMISSIONS AND THE EFFECTS OF CLIMATE CHANGE

                              ----------                              


                     Wednesday, September 21, 2016

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The committee met, pursuant to notice, at 10:04 a.m., in 
room 1334, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, McClintock, LaMalfa, 
Westerman, Graves, Newhouse, Hice, Radewagen, Mooney, Hardy; 
Grijalva, Tsongas, Huffman, Lowenthal, Dingell, and Gallego.
    The Chairman. The committee will come to order, as well as 
the audience, even though you haven't said a word already this 
morning.
    The committee is meeting today to hear testimony on the 
impacts of the Obama CEQ's final guidance for greenhouse gas 
emissions and the effects of climate change. Under Rule 4(f), 
any oral opening statements at this hearing are limited to the 
Chair, Ranking Member, Vice Chair, and a designee of the 
Ranking Member. This will also allow us to hear from our 
witness sooner, and help Members keep their schedules.
    Therefore, I am going to ask unanimous consent that all the 
Members' opening statements be made part of the hearing record 
if they are submitted to the Clerk by 5:00 p.m. today.
    Hearing no objection, so ordered.
    Now I am going to recognize myself for my 5-minute opening 
statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The Chairman. Today's hearing is focusing on the Obama 
Administration Council on the Environmental Quality's sweeping 
final guidance on greenhouse gas emissions. Last year, we 
received testimony on a similar draft guidance, that it was not 
legally enforceable. Now, with a stroke of the pen, CEQ is 
finalizing a voluntary guidance that has to be obeyed, forcing 
every Federal agency to enact regulations to consider 
greenhouse gas emissions for literally all NEPA permitting 
reviews.
    For CEQ, it appears that advancing a questionable agenda at 
all costs is more important that ensuring that the law, 
science, and sound economic reasonings are going to be honored.
    NEPA now requires consideration of individual projects' 
impact on the environment, including carbon emissions. Most 
Federal agencies have correctly concluded that such projects 
have no significant impact on global carbon emissions.
    Not satisfied, CEQ's new voluntary guidances, which must be 
obeyed, greatly expands its interpretation of NEPA, stating 
that all NEPA reviews should now explicitly consider a higher 
bar of impacts on greenhouse gas emissions.
    This guidance, rather than helping the environment, in the 
end will hurt it by driving up the costs for processing of 
permitting activities that support millions of jobs. This 
increase of cost of everything from energy projects to highway 
maintenance to small business construction, will have a real 
impact on the wallets of everyday American families, families 
who have already seen their stagnant incomes stretched to the 
limit by government policies.
    Hundreds of NEPA-related lawsuits have been filed against 
the Federal Government during this Administration, and this 
guidance will encourage these litigious groups, who already 
view NEPA as a means to slow or shut down projects they oppose 
politically or ideologically to sue away. Entities that have 
already spent significant resources on NEPA processes to 
complete environmental impact statements will face greater 
uncertainty as a result of this guidance. Exaggerated impacts 
for even the smallest of future projects will likely mean that 
projects that are waiting in the pipeline will be unjustly 
denied or they will become too costly to complete.
    This guidance inappropriately promotes a cost-benefit 
analysis that lacks peer review, called the Social Cost of 
Carbon. This is one of the Administration's least transparent 
environmental decisions, developed behind closed doors by the 
Office of Management and Budget and other unelected Federal 
administrative officers.
    Perhaps most concerning is the apparent lack of awareness 
of the limits of executive authority and the appropriate role 
of Congress. Executive over-reach has become the hallmark of 
this Administration, and will be part of its legacy. This 
Administration's concept that the end justifies the means and 
if it can't get something through Congress, then finding other 
ways of accomplishing its goals, stretches the limits of our 
Constitution.
    A few years ago, the President failed to get his cap-and-
trade and climate change agenda through Congress, a Congress, I 
might add, which held Democratic majorities. He famously 
declared that using Congress was just one way of skinning the 
cat, but that is not the only way. Apparently this CEQ draft 
guidance is apparently that other way. That is not how our 
system of government is supposed to work.
    If a project would have no significant impact on global 
carbon emissions, or the global climate, then that project's 
impact on the human environment is zero, full stop, end of 
story. This should be the end of assessments required by NEPA. 
CEQ does not get to alter NEPA just because they do not like 
the results it produces. That approach of interpreting the law 
is dangerous, and it is an abuse of power the Constitution was 
created to minimize and prevent.
    NEPA, which was enacted in 1970, desperately needs to be 
reviewed, updated, and improved, as state environmental 
protection acts have, and as Canada has with theirs. However, 
it is Congress' responsibility, through oversight and passing 
legislation, not the executive branch's responsibility through 
guidances.
    As Congress begins this needed look at NEPA, CEQ must be 
content with the way the law is written, not how they 
mistakenly interpret it.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources

    Today's hearing will focus on the Obama Administration Council on 
Environmental Quality's sweeping final guidance on greenhouse gas 
emissions. Last year, we received testimony that similar draft guidance 
was ``not legally enforceable.'' Now, with the stroke of a pen CEQ is 
finalizing it, thus forcing Federal agencies to enact regulations to 
consider greenhouse gas emissions for literally all National 
Environmental Policy Act (NEPA) permitting reviews. For CEQ, it appears 
advancing a questionable agenda at all costs is more important than 
ensuring that the law, science, or sound economic reasoning are 
honored.
    NEPA now requires consideration of individual projects' impact on 
the environment, including carbon emissions. Most Federal agencies have 
correctly concluded that such projects have no significant impact on 
global carbon emissions. Not satisfied, CEQ's guidance greatly expands 
its interpretation of NEPA, stating all NEPA reviews should now 
explicitly consider a much higher bar of ``impacts on greenhouse gas 
emissions.''
    This guidance, rather than help the environment, will in the end 
hurt it by driving up costs for the processing of permitted activities 
that support millions of jobs. This will increase [increasing] the cost 
of everything from energy projects to highway maintenance to small 
business construction, having a very real impact on the wallets of 
everyday American families, families who have already seen their 
stagnant incomes stretched to the limit by government policies.
    Hundreds of NEPA-related lawsuits have been filed against the 
Federal Government just during the Obama administration. This guidance 
will encourage litigious groups, who already view NEPA as a means to 
slow or shut down projects that they oppose politically or 
ideologically.
    Entities that have already spent significant resources on NEPA 
processes to complete environmental impact statements will face greater 
uncertainty as a result of this guidance. Exaggerated impacts for even 
the smallest of future projects will likely result in these in the 
pipeline projects being unjustly denied or they will become too costly 
to complete.
    In addition, this guidance inappropriately promotes a cost-benefit 
analysis that lacks peer review, called the Social Cost of Carbon. This 
is one of the Administration's least transparent environmental 
decisions, developed behind closed doors by the Office of Management 
and Budget and other unelected Federal officials in 2009.
    Perhaps most concerning is the apparent lack of concern or 
awareness of the limits of Executive authority and the appropriate role 
of Congress. Executive over-reach has become perhaps the hallmark of 
this Administration and will unfortunately be part of its legacy. From 
executive amnesty, to unilateral changes to Obamacare, and now climate 
change, this Administration's ``the-ends-justifies-the-means'' attitude 
has been apparent from the beginning; if it can't get something through 
Congress, then it find other means of accomplishing its goal, 
stretching the limits of the Constitution.

    A few years ago, after the President failed to get his cap-and-
trade and climate change agenda through Congress--a Congress in which 
the Democrats held the majority, by the way--he famously declared that 
using Congress ``was just one way of skinning the cat, [but] it was not 
the only way.'' This CEQ draft guidance is apparently that ``other 
way.''

    That is not how our system of government is supposed to work. If a 
project would have ``no significant impact'' on global carbon emissions 
or the global climate, then that project's impact on the human 
environment is zero. Full stop. End of story. That is the end of the 
assessment required by NEPA. CEQ does not get to alter NEPA just to get 
the results it wants. That approach to interpreting laws is dangerous 
and is the exact abuse of power our Constitution was created to 
prevent.

    NEPA--enacted in 1970--needs to be reviewed, updated and improved 
to protect the environment as originally intended. However, this is 
Congress' responsibility, through oversight and passing laws--NOT the 
executive branch's. As Congress begins this needed look at NEPA, CEQ 
must be content with the law as it is written.

                                 ______
                                 

    The Chairman. With that, I will yield back the remainder of 
my time, and turn to the Ranking Member for his opening 
statement.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. Thank you, Mr. Chairman, and let me welcome 
our witness. Thank you very much.
    It is disappointing that we are not doing our jobs and 
having hearings on the impacts of climate change on our Nation. 
That is what we should be doing. Instead, we are going to 
dissect, for the second time in this Congress, the 
Administration's attempt to merely understand the carbon impact 
of our Federal decisions.
    The arguments for doing so are simple and strong: various 
agencies and dozens of lawsuits have concluded that analyses 
done under NEPA, an environmental law, should consider the 
mother of all environmental issues, climate change. But 
different courts are giving different agencies slightly 
different mandates. And the agencies that are already doing it, 
are not all doing it in the same way.
    CEQ's guidance provides clarity, consistency, and 
predictability across agencies for various industries and 
stakeholders. By reducing litigation, it also reduces taxpayer 
costs. I can usually rely on my friends on the other side of 
the aisle to argue for these outcomes.
    At the same time, the arguments against the guidance are 
not particularly compelling. We will hear claims that the 
guidance contains requirements for agencies instead of 
recommendations, because agencies will follow guidance as if it 
were law. But then we will hear that CEQ chose not to follow 
the guidance of OMB about cost-benefit analysis.
    Which is it? Is guidance always followed or not? We can't 
have it both ways. And we will hear that individual projects 
undertaken by the Federal Government are too small for us to be 
able to prove that they contribute to climate change. This 
shows a profound lack of understanding, or denial, about how 
climate change works. These arguments help us understand what 
this hearing is really about, it is about climate denial.
    In our hearing on this guidance last year, a climate denier 
was a Majority witness who garnered much of the time and 
questions. In fact, the majority on this committee has 
frequently given climate deniers legitimacy by inviting them to 
testify.
    And of course, there is the Science Committee Chairman's 
holy war against anyone who would dare ask whether the biggest 
oil company on the planet has broken the law in its quest to 
distort, delay, or deny climate science.
    We cannot afford the luxury of playing political games with 
our climate. That time is up. Yesterday, in fact, 375 members 
of the National Academy of Sciences, including 30 Nobel 
laureates, published an open letter to draw attention to the 
serious risks of climate change, and the irresponsibility of 
political leaders who deny the risk.
    The statement, signed by a set of scientists that includes 
long-time Republican voters and that represents a broad 
political spectrum, begins by saying, ``Human caused climate 
change is not a belief, a hoax, or a conspiracy. It is a 
physical reality.'' The letter continues that it is of great 
concern that the Republican nominee for President has advocated 
U.S. withdrawal from the Paris Accord. The consequences of 
opting out of a global community would be severe and long 
lasting for our planet's climate and for the international 
credibility of the United States.
    And I would ask unanimous consent to submit the letter in 
its entirety for the record, Mr. Chairman.

    The Chairman. So ordered.

[The letter submitted by Mr. Grijalva for the record has been 
retained in the Committee's official files and can be accessed 
at http://responsiblescientists.org/.]

    Mr. Grijalva. Thank you. In May of this year, I held a 
forum in which we heard directly from American citizens that 
are already refugees in their own country because of climate 
change. Deme Naquin, from the Isle de Jean Charles Band of 
Biloxi-Chitimacha-Choctaw Natives in southeast Louisiana 
testified, ``Over the last 60 years, we have lost 98 percent of 
our land due to coastal erosion, land subsidence, and powerful 
storms enhanced by sea-level rise. We have lost 22,000 acres in 
this time. Our island is disappearing fast.''
    It is a classic case of environmental injustice because 
Native American communities typically do the least among us to 
contribute to climate change, but they bear the impacts first 
and worst.
    I would support a discussion about the best way to stop the 
worst effects of climate change. I would welcome a debate about 
the best way for us to shore up our resilience to the warming 
that is already in the pipeline. But this hearing is about 
whether we should close our eyes and hope that climate change 
goes away. I promise it won't.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    Thank you Mr. Chairman.
    It's disappointing that we aren't doing our jobs and having 
hearings on the impacts of climate change on our Nation. Instead, we 
are going to dissect, for the second time this Congress, the 
Administration's attempt to merely understand the carbon impact of our 
own Federal decisions.
    The arguments for doing it are simple and strong.
    Various agencies and dozens of lawsuits have concluded that 
analyses done under NEPA--an environmental law--should consider the 
mother of all environmental issues, climate change. But different 
courts are giving different agencies slightly different mandates. And 
the agencies that are already doing it, are not all doing it in the 
same way.
    CEQ's guidance provides clarity, consistency and predictability 
across agencies for various industries and stakeholders. By reducing 
litigation, it also reduces taxpayer costs. I can usually rely on my 
friends on the other side to argue for these outcomes.
    At the same time, the arguments against the guidance are not 
particularly compelling.
    We'll hear claims that the guidance contains requirements for the 
agencies instead of recommendations because agencies follow guidance as 
if it were law. But then we'll hear that CEQ chose not to follow the 
guidance from OMB about cost-benefit analysis. Which is it? Is guidance 
always followed or not? Can't have it both ways.
    And we will hear that individual projects undertaken by the Federal 
Government are too small for us to be able to prove they contribute to 
climate change. That shows a profound lack of understanding--or 
denial--about how climate change works.
    Those arguments help us understand what this hearing is really 
about--climate denial.
    In our hearing on this guidance last year, a climate denier was a 
majority witness who garnered much of the time and questions.
    In fact, the Majority on this committee has frequently given 
climate deniers legitimacy by inviting them to testify.
    And of course there's the Science Committee Chairman's holy war 
against anyone who would dare ask whether the biggest oil company on 
the planet has broken the law in its quest to distort, delay, and deny 
climate science.
    We can't afford the luxury of playing political games with our 
climate. Time is up.
    In May of this year, I held a forum in which we heard directly from 
American citizens that are already refugees in their own country 
because of climate change.
    Deme Naquin from the Isle de Jean Charles Band of the Biloxi 
Chitimacha-Choctaw in Southeast Louisiana testified that ``Over the 
last 60 years we have lost 98 percent of our land due to coastal 
erosion, land subsidence, and powerful storms enhanced by sea-level 
rise. We have lost over 22,000 acres in this time. Our island is 
disappearing fast.''
    It's a classic case of environmental injustice because Native 
American communities typically do the least among us to contribute to 
climate change, but they bear the impacts first and worst.
    I would support a discussion about the best way to stop the worst 
effects of climate change. I would welcome a debate about the best way 
for us to shore up our resilience to the warming that is already in the 
pipeline.
    But this hearing is about whether we should close our eyes and hope 
that climate change goes away. I promise, it won't.

                                 ______
                                 

    Mr. Grijalva. With that, I yield back, Mr. Chairman.
    The Chairman. Thank you. It is good to see we are both on 
the same page.
    With that, we want to welcome our witness, Ms. Christy 
Goldfuss, who is the Managing Director of the White House 
Council on Environmental Quality. Thank you for being here 
again. Thank you for talking about this voluntary guidance, 
which everyone has to do. In fact, I think we are going to give 
you that shirt that says, ``She Who Must Be Obeyed.'' And you 
get 2 extra minutes if you understand the reference.
    Ms. Goldfuss. Well, I really wish my children understood 
what that meant.
    The Chairman. OK. You don't get the extra 2 minutes.
    Ms. Goldfuss. I won't get the extra 2 minutes; I won't need 
it.
    The Chairman. But I----
    Ms. Goldfuss. Let me put it that way.
    The Chairman. So, with that, thank you for being here. You 
know the drill. You have 5 minutes for the opening statement, 
you know the way the clock works ahead of you. I would like to 
recognize you right now for anything you wish to say orally.
    Ms. Goldfuss. Great, thank you, Chairman.
    The Chairman. Thank you.

  STATEMENT OF THE HON. CHRISTY GOLDFUSS, MANAGING DIRECTOR, 
COUNCIL ON ENVIRONMENTAL QUALITY, THE WHITE HOUSE, WASHINGTON, 
                               DC

    Ms. Goldfuss. Good morning, everyone. Thank you, Ranking 
Member Grijalva, and members of the committee. Thank you for 
the opportunity to appear before you today to discuss the 
Council on Environmental Quality's final guidance on 
considering greenhouse gas emissions and the effects of climate 
change in National Environmental Policy Act reviews. This final 
guidance represents the culmination of more than 6 years of 
work by CEQ with Federal agencies and two rounds of public 
comments from a wide variety of stakeholders. I appreciate the 
committee's continued interest in this issue, and for inviting 
me back to testify a second time, now that this guidance is 
final.
    Across the globe, we are already seeing increasingly the 
impacts of extreme weather, longer wildfire seasons, rising sea 
levels, and other impacts of climate change. Climate change is 
real, and we are experiencing these impacts now: 2015 was the 
hottest year on record, and last month was the 16th consecutive 
month of record-breaking heat.
    And taxpayer dollars are at stake, as well. Over the past 
decade, the Federal Government alone has spent more than $357 
billion in direct costs due to extreme weather and wildfires. 
Now we are even looking at spending taxpayer dollars to help 
relocate entire communities at risk in Louisiana, Washington, 
and also Alaska. That is why, under President Obama's 
leadership, the Administration has taken more action to address 
climate change and build a clean-energy economy than ever 
before. By counseling Federal agencies on how to consider 
climate change in their NEPA reviews, our final guidance builds 
on the Administration's efforts to address climate change and 
build a more resilient future.
    Under NEPA, Federal agencies are required to consider and 
disclose the potential effects of their actions on the 
environment. Over the years, Federal agencies have looked to 
CEQ for how best to analyze those actions, and consider ways in 
which climate change is affecting Federal projects.
    Additionally, for more than two decades, courts have been 
asked to determine if Federal agencies must consider the 
greenhouse gas emission effects of major Federal actions in 
their NEPA documents. In fact, since 1990, there have been more 
than 90 NEPA cases, involving more than 25 Federal agencies, in 
which plaintiffs have raised climate change issues.
    The final CEQ guidance is built on agencies' experience, 
and crafted to provide a consistent approach across the Federal 
Government, while also allowing the flexibility to accommodate 
diverse circumstances and agencies' expert judgment. The goal 
is to ensure that NEPA analysis provides the public and Federal 
agencies with a clear picture of how the Federal Government 
impacts climate change.
    In order to measure impacts on climate change, the guidance 
asks that agencies quantify greenhouse gas emissions from 
proposed agencies actions as part of their NEPA analyses. It 
also counsels agencies to consider alternatives that are more 
resilient to the effects of a changing climate, like ensuring a 
bridge is rebuilt to account for sea-level rise.
    Building on the 2010 and 2014 draft guidance documents, our 
final guidance reflects extensive consideration of comments and 
feedback received from hundreds of individuals, organizations, 
and Members of Congress, including this very committee. 
Notably, the final guidance does not include a reference point 
for when agencies would have to quantify projected greenhouse 
gas emissions impacts. Instead, the guidance asks that agencies 
quantify projected emissions when the necessary tools, 
methodologies, and data inputs are available, an issue this 
committee raised with us.
    With the finalization of this guidance, the Administration 
is taking another big step in the effort to consider how 
Federal actions will impact climate change, and identify 
opportunities to build climate resilience, saving taxpayer 
dollars in the long run. As President Obama has said many 
times, climate change is the greatest threat facing our planet, 
and it is critical that we all act now.
    I firmly believe that this guidance will help agencies 
build more resilient projects and communities, and make more 
transparent decisions, which in turn improve environmental and 
community outcomes.
    With that, Mr. Chairman, Ranking Member Grijalva, and 
members of the committee, I appreciate the opportunity to 
testify before you today, and I look forward to answering all 
of your questions.

    [The prepared statement of Ms. Goldfuss follows:]
 Prepared Statement of Christy Goldfuss, Managing Director, Council on 
                         Environmental Quality
    Chairman Bishop, Ranking Member Grijalva, and members of the 
committee, thank you for the opportunity to appear before you today to 
discuss the Council on Environmental Quality's Final Guidance on 
Considering Greenhouse Gas Emissions and the Effects of Climate Change 
in National Environmental Policy Act (NEPA) Reviews. This final 
guidance represents the culmination of over 6 years of work by CEQ with 
Federal agencies and two rounds of public comments from a wide variety 
of stakeholders. CEQ's message is clear: NEPA implementation should be 
consistent with the law, policy, and science that is leading efforts 
here and around the world to consider the impacts associated with 
climate change and Federal actions. I appreciated the committee's 
interest in this issue when I testified in front of this committee on 
May 13, 2015 and thank you for inviting me back to discuss the final 
guidance.
    CEQ issued its final guidance under the authority of NEPA, which is 
the Nation's basic environmental charter and CEQ's organic act. Section 
102 of NEPA contains action-forcing requirements for Federal agencies 
to consider and publicly disclose the potential environmental effects 
of their proposed actions on the human environment. Simply put, the 
NEPA review process directs agencies to ``look before they leap'' to 
ensure that Federal decisionmakers take into account the direct, 
indirect, and cumulative impacts of their actions on the natural and 
physical environment.
    The consideration of the impacts of human activities on our climate 
has been identified as a CEQ concern since 1970, when it issued its 
first annual report on the state of the environment.\1\ As the science 
of climate change developed over time, CEQ was called upon to provide 
guidance on the application of this information in the context of NEPA 
reviews. CEQ developed draft guidance for interagency review in 1989 
and in 1997 but it never finalized these guidance. This did not impede 
agencies from considering climate change in their NEPA reviews. For 
example, as early as 1989 Federal agencies like the Department of 
Energy were leading the way with the incorporation of climate change 
considerations into their environmental impact statements. Federal 
courts have also gotten involved over the years by requiring Federal 
agencies to consider the greenhouse gas emission effects in NEPA 
analyses of major Federal actions.
---------------------------------------------------------------------------
    \1\ See CEQ, First Annual Report of the Council on Environmental 
Quality, pp. 93-104 (Aug. 3, 1970).
---------------------------------------------------------------------------
    Today, taking into account climate change in environmental impact 
assessment processes has become a standard practice that has been 
adopted by Federal agencies, state agencies, international bodies, and 
public and private organizations around the world. The final CEQ 
guidance is built on this record of experience to help ensure that NEPA 
analysis provides the public and Federal agencies with a clear picture 
of how many types of Federal actions can implicate climate change 
issues and identify opportunities to build climate resilience. The 
guidance encourages consistency across Federal agencies in how they 
take these considerations into account in the NEPA process. Agencies 
must consider and disclose the impacts of their actions with respect to 
climate change, but it does not require them to choose any specific 
outcome.
                   road leading to the final guidance
    NEPA implementation is based on the idea that Federal agencies 
should consider and disclose the reasonably foreseeable effects of 
their proposed actions on the human environment. For a number of years, 
Federal agencies struggled with how they should analyze actions that 
contribute to climate change and how to best consider the myriad of 
ways in which climate change is affecting Federal agency actions.
    In many cases, Federal actions have the potential to contribute to 
climate change by causing greenhouse gas emissions. Federal agency 
actions may also affect ecosystems and communities that are 
particularly vulnerable to climate change impacts. Additionally, 
Federal agency actions may themselves be affected by many of the 
impacts of a changing climate, such as rising sea levels, extreme 
weather, drought, and wildfires, and NEPA assists in considering a 
range of alternatives to address those impacts.
    Not surprisingly, Federal courts have found that evaluating the 
impacts of Federal actions on climate change should be part of 
agencies' NEPA reviews. Litigation over various NEPA documents creates 
the potential for different standards across the Nation on the 
appropriate scope and extent of this analysis. These analytical 
challenges, and their legal implications, led agencies to request CEQ 
provide guidance and technical assistance on this topic. CEQ also 
received a formal petition from three non-governmental organizations 
under the Administrative Procedure Act to amend its regulations to 
address climate change in NEPA reviews.
    In light of the agencies need for formal guidance, CEQ circulated 
drafts of guidance for interagency comment beginning in 1989 and issued 
initial Draft Guidance for public comment in February 2010. CEQ sought 
public comments on the 2010 Draft Guidance generally and included a 
number of questions regarding the assessment of climate change effects 
for land and resource management actions specifically. CEQ received 
more than 100 public comments and other feedback from private citizens, 
corporations, environmental organizations, trade associations, and 
Federal and state agencies. During the time CEQ was considering these 
comments and was engaging with Federal agencies on changes to the 
guidance, it received formal recommendations to finalize the guidance. 
The U.S. Government Accountability Office (GAO), for example, 
recommended CEQ finalize the guidance to assist agencies in determining 
how to consider the effects of climate change in the NEPA process.\2\ 
In addition, the State, Local and Tribal Leaders Task Force on Climate 
Preparedness and Resilience recommended to the President that the 
guidance be finalized.\3\ Following years of engagement CEQ released a 
Revised Draft Guidance in December 2014 that reflected consideration of 
comments and input received.
---------------------------------------------------------------------------
    \2\ See GAO Report to Congressional Requesters, Climate Change: 
Future Federal Adaptation Efforts Could Better Support Local 
Infrastructure Decision Makers, p. 87, GAO-13-242 (April 2013) 
available at http://www.gao.gov/assets/660/653741.pdf.
    \3\ Recommendations of the State, Local, and Tribal Leaders Task 
Force on Climate Preparedness and Resilience, p. 20, Recommendation 2.7 
(November 2014) available at https://www.whitehouse.gov/sites/default/
files/docs/task_force_report_0.pdf.
---------------------------------------------------------------------------
    CEQ made the 2014 Revised Draft Guidance available for public 
review and comment for a total of 90 days (60-day comment period and a 
30-day extension). We received over 100 substantive comments from a 
wide range of stakeholders including from this committee, individual 
Members of Congress, tribes, corporations, environmental organizations, 
trade associations, academics, private citizens, and Federal, state, 
and local government agencies.
    The final guidance adopted on August 1, 2016 reflects CEQ's 
consideration of comments and feedback. Throughout this process, CEQ 
consulted with Federal agencies and other stakeholders on the most 
helpful and appropriate ways to provide all Federal agencies with 
clarity on how they should consider the potential impacts of their 
actions on climate change in their NEPA reviews.
                     content of the final guidance
    The final CEQ guidance provides Federal agencies with a CEQ-
endorsed framework they can rely on, providing a more predictable and 
consistent approach when considering climate impacts as part of NEPA 
alternatives, effects, and public input. This increased predictability 
and consistency will allow decisionmakers and the public to better 
understand the relevant climate impacts of all proposed Federal 
actions, and in turn, assist agencies in comparing alternatives and 
considering measures to mitigate the impacts of climate change and 
identify opportunities to build climate resilience. It will also allow 
agencies to manage public resources more efficiently by focusing their 
attention on climate change issues when and where they matter.

    The final guidance explains the application of NEPA principles and 
practices to the analysis of GHG emissions and climate change, and:

    <bullet> Recommends that agencies quantify a proposed agency 
            action's projected direct and indirect GHG emissions, 
            taking into account available data and GHG quantification 
            tools that are suitable for the proposed agency action;

    <bullet> Recommends that agencies use projected GHG emissions (to 
            include, where applicable, carbon sequestration 
            implications associated with the proposed agency action) as 
            a proxy for assessing potential climate change effects when 
            preparing a NEPA analysis for a proposed agency action;

    <bullet> Recommends that where agencies do not quantify a proposed 
            agency action's projected GHG emissions because tools, 
            methodologies, or data inputs are not reasonably available 
            to support calculations for a quantitative analysis, 
            agencies include a qualitative analysis in the NEPA 
            document and explain the basis for determining that 
            quantification is not reasonably available;

    <bullet> Discusses methods to appropriately analyze reasonably 
            foreseeable direct, indirect, and cumulative impacts of 
            reasonably foreseeable GHG emissions and climate effects;

    <bullet> Guides the consideration of reasonable alternatives and 
            recommends agencies consider the short- and long-term 
            effects and benefits in the alternatives and mitigation 
            analysis;

    <bullet> Advises agencies to use available information when 
            assessing the potential future state of the affected 
            environment in a NEPA analysis, instead of undertaking new 
            research that is unnecessary, and provides examples of 
            existing sources of scientific information;

    <bullet> Counsels agencies to use the information developed during 
            the NEPA review to consider alternatives that would make 
            the actions and affected communities more resilient to the 
            effects of a changing climate;

    <bullet> Outlines special considerations for agencies analyzing 
            biogenic carbon dioxide sources and carbon stocks 
            associated with land and resource management actions under 
            NEPA;

    <bullet> Recommends that agencies select the appropriate level of 
            NEPA review to assess the broad-scale effects of GHG 
            emissions and climate change, either to inform programmatic 
            (e.g., landscape-scale) decisions, or at both the 
            programmatic and tiered project- or site-specific level, 
            and to set forth a reasoned explanation for the agency's 
            approach; and

    <bullet> Counsels agencies that the ``rule of reason'' inherent in 
            NEPA and the CEQ Regulations allows agencies to determine, 
            based on their expertise and experience, how to consider an 
            environmental effect and prepare an analysis based on the 
            available information.

    Agencies have substantial discretion on how to implement to their 
programs and actions. Many are already developing strategies and their 
own guidance to apply the general CEQ guidance to their particular 
actions, programs, and decisions. Guidance does not impose new 
requirements--this is not a regulation. Nothing in the guidance 
requires agencies to make a specific decision. It simply guides 
agencies on how they can take climate change impacts into 
consideration, which strengthens those decisions scientifically, 
legally, and as a matter of informed public policy.
 incorporating public comment and agency feedback in the final guidance

    After receiving public comments and agency feedback on the 2014 
Draft Guidance, CEQ made a number of changes to the final guidance to 
address concerns raised. First, CEQ eliminated the concept of a 
reference point. In both the 2010 and 2014 drafts, CEQ had proposed a 
25,000 metric ton CO<INF>2</INF>-equivalent reference point to assist 
agencies in identifying when quantification of greenhouse gas emissions 
would be appropriate, something in which this committee was 
specifically interested. However, after receiving feedback from Federal 
agencies and other stakeholders, CEQ found that many tools are 
available to estimate GHG emissions and there was no need to establish 
a reference point for the decision whether to quantify emissions. This 
led CEQ to remove the reference point and instead to encourage agencies 
to quantify and disclose GHG emissions whenever the necessary tools, 
methodologies, and data inputs are reasonably available. If appropriate 
quantitative calculators or data inputs are not available, a 
qualitative analysis is recommended. To assist agencies in this area, 
CEQ updated its information on existing GHG accounting tools that 
Federal agencies have developed and used, and that may be appropriate 
for GHG emission quantification in particular NEPA analyses. An updated 
list of these GHG accounting tools was published simultaneously with 
the Final Guidance \4\ and will be further updated from time to time as 
new tools are identified.
---------------------------------------------------------------------------
    \4\ The list of GHG accounting tools currently can be accessed at: 
https://ceq.doe.gov/current_developments/ghg-accounting-tools.html.
---------------------------------------------------------------------------
    In addition to the removal of this reference point, CEQ made 
changes throughout the guidance to remind agencies that they should 
rely on the NEPA concepts of ``proportionality'' and the ``rule of 
reason'' to establish when and how to take climate change into account. 
The Final Guidance encourages agencies to draw on their experience and 
expertise to determine the appropriate level and extent of quantitative 
or qualitative analysis required to comply with NEPA. This would help 
agencies avoid develop in-depth analysis when they are unnecessary.
    Another change CEQ made as a result of the input received is the 
removal of the terms ``upstream'' and ``downstream'' in reference to 
GHG emissions. Comments received expressed confusion since these were 
not terms typically used in the NEPA process. CEQ removed these terms 
and focused on the more familiar NEPA regulatory terms of ``direct,'' 
``indirect,'' and ``cumulative effects.''
    Finally, the guidance provides the agencies with more details on 
what to consider when determining whether to apply the guidance to 
ongoing NEPA reviews. In particular the guidance indicates that in 
making these decisions the agencies should factor whether following the 
guidance would inform the consideration of differences between 
alternatives or address comments raised through the public comment 
process. Agencies should also consider whether the additional time and 
resources needed would be proportionate to the value of the information 
included.
                  implementation of the final guidance

    This guidance is part of an ongoing effort to adapt NEPA 
implementation and help agencies make informed and transparent 
decisions about the impacts of climate change associated with their 
actions. The Final Guidance makes recommendations that will benefit all 
agencies and build off of the work agencies are already doing to engage 
in climate change-related analyses for their actions.
    Since the release of the Final Guidance, CEQ has received positive 
feedback from agencies and is providing technical assistance to those 
agencies interested in developing their own agency-specific guidance 
materials that take into account their unique programs and missions. 
CEQ recommends that agencies review their NEPA procedures and propose 
any updates they deem necessary or appropriate to facilitate their 
consideration of GHG emissions and climate change. This guidance will 
inform CEQ's review of agency proposals for revising their NEPA 
procedures. The Final Guidance and CEQ's review of agency NEPA 
procedures will be important tools for achieving consistency across 
Federal agencies on how climate change is considered in NEPA reviews.
                               conclusion

    This final guidance is another big step in this Administration's 
effort to consider how Federal actions will impact climate change and 
to identify opportunities to build climate resiliency into projects 
with a Federal nexus.
    Mr. Chairman, Ranking Member Grijalva, and members of the 
committee, I firmly believe that this guidance will help agencies build 
more resilient projects and communities, and make more transparent 
decisions, which in turn improve environmental and community outcomes. 
I appreciate the opportunity to testify before you today and look 
forward to answering your questions.

                                 ______
                                 

    The Chairman. Thank you, Christy. And, obviously, anything 
else you have written will be part of the record.
    We will now turn to questions from Members. Remember that 
Rule 3(d) imposes a 5-minute limit on all questions and 
answers. I will try and do that as quickly as I can. And for 
me, I am going to yield my time to Mr. Westerman to start the 
questioning.
    Mr. Westerman. Thank you, Mr. Chairman.
    Thank you, Ms. Goldfuss, for being here. You have 
referenced a couple of times in your testimony about increased 
wildfires and climate change. Do you think there is anything 
else contributing to the increased wildfires that we are seeing 
today?
    Ms. Goldfuss. Can you repeat the question?
    Mr. Westerman. Do you think there is anything other than 
climate change contributing to the increased wildfires that we 
see today? You have referenced that a couple of times.
    Ms. Goldfuss. There are many factors that contribute to 
each individual fire, yes.
    Mr. Westerman. And what would those be?
    Ms. Goldfuss. They can be drought, which is exacerbated by 
climate change. They can be lightning strikes, human activity, 
any number of things.
    Mr. Westerman. Yes, lightning strikes is a cause, human 
activity is a cause. What about management of the forest? Can 
that contribute to wildfires?
    Ms. Goldfuss. Certainly management of the forest is very 
important in how we manage for wildfire.
    Mr. Westerman. In what ways?
    Ms. Goldfuss. In what way is management of the forest 
important to how we manage for wildfire?
    Mr. Westerman. Right.
    Ms. Goldfuss. Well, I don't want to speak to all the Forest 
Service's management approaches here, but there are many 
different ways that----
    Mr. Westerman. How about their lack of management 
approaches? Do you think there is any correlation between 
wildfires on managed land and public land that is not managed?
    Ms. Goldfuss. We certainly have had much success, and our 
colleagues at the Forest Service are the experts in this area, 
in managed areas where we see areas that are more resistant to 
wildfire, yes.
    Mr. Westerman. And what areas would those be?
    Ms. Goldfuss. I was actually just near one recently with 
the President in Tahoe. There are many stories about fire in 
that region, where we have seen the difference between managed 
lands and not-managed lands.
    Mr. Westerman. So the managed lands have less fire, they 
are more resilient to fire than the unmanaged lands?
    Ms. Goldfuss. It is not less fire, just the fire 
characteristics are different in the managed lands than----
    Mr. Westerman. What is your training? What is your 
background?
    Ms. Goldfuss. What is my background?
    Mr. Westerman. Right.
    Ms. Goldfuss. Prior to this job I worked at the National 
Park Service. And then, prior to that, I was here at the 
committee. And then, prior to that, I worked at a think tank.
    Mr. Westerman. And what is your educational background?
    Ms. Goldfuss. I graduated from Brown University and I 
studied political science.
    Mr. Westerman. So you studied political science, which 
really is not a science at all, but you are making scientific 
judgments on what causes wildfires. You come in and say that it 
is climate change that causes it, that you don't really 
understand about forest management, and the Administration has 
pushed back on forest management. The fact that we have seen 
wildfires increase as management goes down, that is a pretty 
good scientific indicator that management and controlling 
wildfires is important.
    When you talk about the impact of this guidance--and I am 
concerned about what it will have on a project that may have, 
prior to this guidance, simply conducted an environmental 
assessment and then issued a finding of no significant impact. 
Is the draft guidance intended to be used for environmental 
assessments?
    Ms. Goldfuss. The draft guidance applies to both 
environmental assessments and environmental impact statements. 
We say clearly in the guidance that any decision that has been 
previously made, the agencies are not recommended to go back 
and review that.
    Mr. Westerman. Is it possible that a project, pre-final 
guidance, would have had no significant impact on the 
environment, but now, due to the final guidance, it would be 
forced to conduct an EIS or implement mitigation measures?
    Ms. Goldfuss. If there has already been a finding of no 
significant impact, it would not need to go back and be 
reviewed.
    Mr. Westerman. So, if a project has a relatively small 
amount of emissions, say 25,000 tons, and let's say the project 
has no other significant impacts, so the finding of no 
significant impact, could a judge place an injunction on the 
project until they mitigated their emissions, saying that they 
should have conducted an environmental impact statement?
    Ms. Goldfuss. Is this a specific case to which you are 
referencing?
    Mr. Westerman. Well, it is just in general what could 
happen with this guidance.
    Ms. Goldfuss. Well, I cannot respond to what would happen 
if a judge said that the agency had to go back and review. I 
can tell you what happens now, going forward.
    Mr. Westerman. So what happens now?
    Ms. Goldfuss. Now, going forward, the guidance would 
recommend that agencies look at climate change in their NEPA 
reviews. And they do that through quantifying their greenhouse 
gas emissions.
    Mr. Westerman. So what is the difference between 10,000 
tons and 100,000 tons or 500,000 tons in the context of global 
emissions? Is there any difference?
    Ms. Goldfuss. I think what you are speaking to is really 
the nature of climate change, which is that there are millions 
of different actions that contribute to this overall threat 
that we see to the planet. So to say that one----
    Mr. Westerman. What about the 100 million tons of carbon 
that went up in forest fires last year because we failed to 
manage our forest? Does that contribute to climate change?
    Ms. Goldfuss. As you would see in the guidance, we account 
for both ways to value the carbon stock nature of the 
environment, or the natural resources, and also the carbon 
emissions.
    The Chairman. Thank you. Be careful, I am a poli-sci 
graduate, too.
    [Laughter.]
    The Chairman. And you are right, it qualifies me to sell 
shoes at Penney's.
    Mr. Grijalva, do you have questions?
    Mr. Grijalva. Yes, I do. Thank you very much, Mr. Chairman.
    Director Goldfuss, thank you for being here again. As a 
history major----
    [Laughter.]
    The Chairman. That is one step below poli-sci, right?
    Ms. Goldfuss. Are we going to get everyone's major here?
    Mr. Grijalva. Perhaps a step below poli-sci, in some 
people's estimation. But as a history major, I mean, there is a 
glaring lesson that we were taught about it repeating itself. 
And also to be able to understand what was and what is now. So, 
I think there is some application to the discussion today.
    Let me ask you. Do you and your colleagues at CEQ believe 
the earth's climate is changing?
    Ms. Goldfuss. We certainly do.
    Mr. Grijalva. Do you and your colleagues believe that 
burning fossil fuels and the resulting release of greenhouse 
gases into our atmosphere contributes to climate change?
    Ms. Goldfuss. We certainly do, and we are not alone.
    Mr. Grijalva. So, the bottom-line question is, is climate 
change real?
    Ms. Goldfuss. Yes, climate change is real, and we are 
experiencing the impacts and paying for them right now.
    Mr. Grijalva. OK. And why should we care, I think is kind 
of the part of the question today. It appears to me that our 
changing climate is playing a role in the prolonged and more 
severe drought, longer and more intense fire seasons, more 
frequent and dangerous weather events, accelerated coastal 
erosion, habitat loss, and on and on and on. Do you share the 
conviction that climate change is having serious detrimental 
impacts on our environment? And could you discuss some 
examples?
    Ms. Goldfuss. Yes. Thank you, Congressman Grijalva. The 
impacts that we are experiencing are devastating for, say, the 
community of Isle de Jean Charles in Louisiana, where we are 
looking at spending taxpayer dollars for moving the entire 
community to a new location because their island will be under 
water in the coming decades.
    Also, Kotzebue, in Alaska, where the entire community has 
just voted to relocate from where they have lived, because of 
the impact from climate change. And then there are other 
communities elsewhere in Washington State that are having a 
similar discussion. These are the impacts that we see in the 
United States.
    If you look at globally, you talk to the Department of 
Defense or any other colleagues about the impacts of what we 
are seeing globally, it is devastating. So to say that one 
impact or one decision is not relevant to the overall problem 
we are facing does not recognize that, really, we are all in 
this together and have a responsibility to address this problem 
at every point we can.
    Mr. Grijalva. For the benefit of all of us I want to just 
read the stated purpose of NEPA. The laws, that CEQ was created 
to help implement, state--``To declare a national policy which 
will encourage productive and enjoyable harmony between man and 
his environment, to promote efforts that will prevent or 
eliminate damage to the environment and biosphere, and 
stimulate the health and welfare of man.''
    If climate change is indeed real, and I believe it is, as 
you do, and if the impacts of climate change are those we just 
discussed, would you say we are currently living up to the 
goals set by Congress in NEPA, and that we should live in a 
productive and enjoyable harmony with our environment? Are we 
there yet?
    Ms. Goldfuss. We are not there yet. I think it is a 
constant struggle of always balancing the needs of our economy 
and the environment. But what we have seen over time is that we 
can have both. Over the last 15 years we have cut our carbon 
emissions by 6 percent, while the GDP has grown 11 percent. We 
can do both of these things. The guidance is a step in the 
right direction to giving agencies the space to give us the 
information so we can make smart decisions.
    Mr. Grijalva. Director, my question is not whether or not 
CEQ should be issuing this guidance. My question is why it has 
taken CEQ this long to make this obvious and overdue step.
    Can CEQ, the Interior Department, the Agriculture 
Department, or any aspect of our Federal Government possibly 
claim to be living up to the goals set forth in NEPA if we 
continue to deny climate science and ignore climate change in 
our decisionmaking?
    Ms. Goldfuss. In 2010 and 2014, we had many conversations 
and heard from stakeholders. It took us this 6-year period of 
time, and even back farther than that if you look at the 
records for CEQ, discussing how climate change should be 
incorporated into NEPA reviews to get it right.
    I also believe that the tools available to agencies to 
quantify greenhouse gas emissions have evolved and are really 
state-of-the-art at this time. So they have the capacity to do 
it.
    Mr. Grijalva. Thank you.
    The Chairman. Thank you. You should have taken another 2 
years.
    Mr. McClintock.
    Mr. McClintock. Thank you.
    Ms. Goldfuss, as one political science major to another----
    [Laughter.]
    Mr. McClintock. You are addressing something that you are 
obviously very seriously concerned about.
    I noted that on November 2 the Washington Post carried this 
report, ``The Arctic Ocean is warming up, icebergs are growing 
scarcer, and in some places, the seals are finding the water 
too hot,'' according to a report to the Commerce Department 
yesterday. Reports from fishermen, seal hunters, and explorers 
all point to a radical change in climate conditions and 
hitherto unheard-of temperatures in the Arctic zone. 
Exploration expeditions report that scarcely any ice has been 
met as far north as 81 degrees 29 minutes. Soundings to a depth 
of 3,100 meters showed the Gulf Stream still very warm. Great 
masses of ice have been replaced by moraines of earth and 
stones, the report continued, while at many points well-known 
glaciers have entirely disappeared. Very few seals and no 
whitefish are found in the Eastern Arctic, while vast shoals of 
herring and smelts, which have never before ventured so far 
north, are being encountered in the old seal fishing grounds. 
Within a few years it is predicted that due to the ice melt, 
the sea will rise and make most coastal cities uninhabitable.
    Is this the crisis you are referring to?
    Ms. Goldfuss. It is a crisis we are trying to address.
    Mr. McClintock. And how long has this been reaching a 
critical condition?
    Ms. Goldfuss. I am not sure how you would define a critical 
condition. I think we are seeing the impacts now, and this 
guidance is a tool that agencies will be able to use to provide 
us information on how----
    Mr. McClintock. Specifically to address the catastrophic 
warming that this report refers to.
    Ms. Goldfuss. I am not familiar with that specific report. 
What I can tell you----
    Mr. McClintock. Perhaps the reason is because it was 
November 2, 1922 that the Washington Post carried this article. 
I think we can agree that global warming has been going on for 
a long time. It has been going on and off since the last Ice 
Age.
    In fact, I attended the President's address at Yosemite 
this past year. I was struck by his noting that the glaciers in 
Yosemite were disappearing, and it occurred to me that, had he 
given that speech on that very spot 12,000 years before, he 
would have been covered by nearly 3,000 feet of ice.
    Doesn't that predate the invention of the SUV?
    Ms. Goldfuss. What I can speak to are the facts that 
scientists are pointing to now. As has been rightly pointed 
out, I am not a climate scientist, but what I----
    Mr. McClintock. And neither am I, but I do know history. 
And our pre-history tells us that climate is always changing. 
We know that during the Jurassic Period, about 150 million 
years ago, atmospheric carbon dioxide levels were five times 
higher than they are today. And it was the planet's most 
prolific period for new species. Do you deny this science?
    Ms. Goldfuss. What I know is that----
    Mr. McClintock. Do you deny this--yes or no?
    Ms. Goldfuss. Well, 15 of the 16 hottest years on record 
have happened since 2000.
    Mr. McClintock. Well, when you say on----
    Ms. Goldfuss. We have now had 16 months----
    Mr. McClintock. Pardon me, my time.
    Ms. Goldfuss [continuing]. Of global averages----
    Mr. McClintock. Well, I am glad you brought that up, 
because we know, in recorded history, that during the Roman 
warm period, from about 250 to 400 AD, much of Rome's grain 
supply was grown on what are now the deserts of North Africa. 
We know that during the Medieval Warm Period, from the 10th 
through the 13th centuries, wine grapes were grown in Northern 
Britain, and Iceland and Greenland supported a thriving 
agricultural economy. And we also know that during the little 
ice age that followed, the Thames River froze solid every 
winter, and advancing ice destroyed many towns in Europe.
    So, to change this, I am just wondering what it is that you 
estimate this to cost.
    Ms. Goldfuss. Congressman, what I know is the changes that 
we are experiencing now, the costs associated with that----
    Mr. McClintock. But these are changes that----
    Ms. Goldfuss [continuing]. And the responsibility that we 
have to address them if we----
    Mr. McClintock. These are changes that we have noted 
throughout the recorded history of civilization, and that 
science tells us were occurring----
    Ms. Goldfuss [continuing]. Are not telling us that these 
are the same changes.
    Mr. McClintock [continuing]. Long before the emergence of 
human life on this planet.
    So now, let me ask you. What is this guidance going to 
cost?
    Ms. Goldfuss. This guidance is not a regulation. It is not 
legally enforceable. And in fact, what it does is help 
agencies----
    Mr. McClintock. If it is followed to the letter, how much 
is it going to cost?
    Ms. Goldfuss. I don't have that figure for you, because it 
is not a regulation. It is not required to be followed by 
agencies----
    Mr. McClintock. I suspect because the price is absolutely 
astronomical. And if you dared to be candid with this committee 
or the American people, you would have a revolt on your hands.
    I yield back.
    The Chairman. Mrs. Dingell, you were here even before 
anyone else was, so you get to go next, according to Mr. 
Grijalva, and everyone else was tardy. So you are very close to 
detention right now. Mrs. Dingell, you are recognized.
    Mrs. Dingell. Thank you, Mr. Chairman. I am not a political 
scientist, I am not a historian, I am just someone who loves 
our country and loves America. And I don't like it when I see 
us all fighting like this.
    And I will tell you the Pope, though I am a Catholic, has 
told me to pay attention to some of this. But I think we have a 
lot of misinformation out here.
    I want to thank you, Mr. Chairman, for recognizing me and 
Director, for coming today--I am sure this is more fun than 
going to the dentist, maybe.
    For decades, the National Environmental Policy Act has 
improved our environment and fostered fairness in our 
communities by ensuring that the government remains accountable 
to the people. And we all agree the government needs to remain 
accountable to the people.
    The NEPA process requires Federal agencies to review their 
proposed actions in light of their potential impacts on the 
human environment, the places where we all live, work, and 
play. I want to commend CEQ for issuing this historic and 
significant guidance for how agencies should consider emissions 
during the NEPA review process. But I think, as we are seeing 
here today, there is a lot of misinformation about what the 
guidance really means. And I want to clarify those 
misconceptions, so we are all on the same page.
    Director Goldfuss, will agencies be required to prepare 
environmental impact statements for every proposed action that 
emits GHGs?
    Ms. Goldfuss. No, not at all.
    Mrs. Dingell. Will this guidance require agencies to 
prepare more EISs instead of EAs?
    Ms. Goldfuss. No, and we specifically say in the guidance 
that it is unlikely that GHG emissions would ever change the 
type of environmental analysis an agency would conduct.
    Mrs. Dingell. Opponents claim that this guidance is 
burdensome and costly. How is this guidance consistent with the 
President's stated goal of streamlining the permitting process, 
which is something I think we agree with on both sides? How 
does this actually accomplish it, not make it more complicated?
    Ms. Goldfuss. We certainly agree, as well. And as someone 
who has worked in an agency, I can tell you nothing delays 
things more than uncertainty. So, with 90 cases in the courts, 
25 different agencies trying to figure out how to address the 
issue of climate change, this guidance answers that question, 
says that we recommend they account for greenhouse gas 
emissions, and gives them tools to do so, which allows them to 
move beyond the debate and do the analysis.
    Mrs. Dingell. Why does CEQ recommend agencies use projected 
emissions as a proxy for climate effects?
    Ms. Goldfuss. It is another way of answering that question, 
and we know that we have the tools and the data available to do 
that. When there aren't tools or data available, the agencies 
can simply state that and move on. But this is the best way 
that we have and, really, the best proxy for climate change 
impacts.
    Mrs. Dingell. I want to thank the Director for coming today 
and answering these questions. I think it is clear that this 
guidance will give more certainty to project sponsors and set 
the rules for the roads, for how each agency should account for 
these impacts. And I think it would hopefully reduce the time 
that goes into much of this because of it.
    I want to thank the Director and CEQ for the good work on 
this important issue, and yield back the balance of my time, 
Mr. Chairman.
    The Chairman. Thank you.
    Mr. LaMalfa.
    Mr. LaMalfa. Thank you, Mr. Chairman. As a holder of a 
degree in agriculture, bachelor of science, I am glad to hear 
that we are concerned about the production of CO<INF>2</INF>. 
All the plants I have ever grown love CO<INF>2</INF>.
    What we are talking about here with the proposed guidance, 
it suggests that an agency must quantify greenhouse gas across 
all actions connected to a Federal action. So I am wondering 
how this would fit with the limits of an agency's authority 
outside of a proposed action. Would it require an agency to be 
speculative in what it does? How are we going to quantify these 
things?
    Because the scope of an individual project--well, let me 
narrow it down. How does the CEQ intend to move forward to 
ensure that the guidance does not become an impediment when 
this Administration has professed to be supportive of natural 
gas and the infrastructure? Natural gas is a very clean-burning 
fuel, very plentiful, very low cost, one of our best things we 
have, going forward, to provide a reliable fuel source for 
heating, what have you.
    How will this guidance not become an impediment to the gas 
utility projects, and instead further, the Administration's 
goals of improving infrastructure permitting; how is this 
actually going to improve that process? How are we going to 
streamline and speed up the process of getting permits when we 
have additional layers that the CEQ is going to require all the 
agencies that have a piece of the action to do?
    Ms. Goldfuss. Just to step back a moment, the guidance fits 
within the regulatory framework of NEPA, which asks agencies to 
look at the direct, indirect, and cumulative impacts of their 
actions. This guidance does not require agencies to do anything 
different than what those regulations already lay out.
    Instead, it says when it comes to the question of climate 
change, here is the path forward. We would recommend that you 
quantify your greenhouse gas emissions, and here are some tools 
that you could use to do that. If the tools and methodologies 
are not available--and I can say in the agriculture space, USDA 
has several that are quite helpful--agencies can simply state 
that the tools and data are not available, and give us a 
qualitative assessment of what the impacts would be.
    Mr. LaMalfa. If they will pull back from the requirement? 
If the data is not available? Or will they go forward with a 
speculative one?
    Ms. Goldfuss. Once again, this is guidance, so it is not 
requirement, and it is not legally binding.
    Mr. LaMalfa. OK. So agencies can completely ignore this if 
they wish.
    Ms. Goldfuss. They can.
    Mr. LaMalfa. That has not been the attitude.
    There is a tool called the social cost of carbon that is 
allowed within the guidance that we think would be very 
incompatible with the Office of Management and Budget 
requirements that there be a guide for agencies conducting 
cost-benefit analyses.
    Mr. McClintock alluded to--how much will be done to look at 
the cost-benefit analysis of these actions? Because no doubt 
there will be additional cost to those getting permits and 
ongoing operations.
    Ms. Goldfuss. NEPA is a regulation that requires Federal 
agencies to look at their environmental impacts. It does not 
require cost-benefit analysis. So, social cost of carbon is a 
regulatory tool. It is not in any way required by this 
guidance, which still is about environmental analysis, is not a 
regulation, and does not require cost-benefit analysis.
    Mr. LaMalfa. But the SCC does conflict with the Office of 
Management and Budget guidance for requirement for agencies 
when using cost-benefit analysis. Does that mean cost benefit 
will be ignored?
    Ms. Goldfuss. My colleague, Howard Shelanski from OIRA, is 
talking about good guidance right now somewhere else on the 
Hill. But social cost of carbon, once again, is a regulatory 
tool. It is about cost-benefit analysis. NEPA is specifically 
not about cost-benefit analysis. It is about environmental 
review.
    Mr. LaMalfa. So, we can assume that cost-benefit analysis 
will not be part of the thinking on the implementation of the 
guidance?
    Ms. Goldfuss. It is up to each agency to use the tools that 
they believe will give them the best information available.
    Mr. LaMalfa. They have been ignoring that tool for a long 
time.
    Ms. Goldfuss. If they decided to use the cost-benefit 
analysis of social cost of carbon, that is up to them.
    Mr. LaMalfa. How do you explain the fluctuations in 
CO<INF>2</INF> levels pre-Industrial Revolution, and the--sure, 
there is something called climate change. What this really 
boils down to is what percentage of climate change or 
CO<INF>2</INF> is caused by mankind's actions. What percentage 
of that CO<INF>2</INF> production in the world today is caused 
by what people do versus what the planet itself does?
    Ms. Goldfuss. Congressman, we are going to have a 
difference of opinion on this. Just as Mr. McClintock raised, 
we know and what I know is what our scientists tell us, which 
is that climate change is happening now.
    Mr. LaMalfa. Your scientists.
    Ms. Goldfuss. And that humans are contributing----
    Mr. LaMalfa. Which group of scientists?
    The Chairman. All right, let me----
    Ms. Goldfuss. The vast majority.
    The Chairman. Let me cut this off, we need to go on.
    Mr. Huffman.
    Mr. Huffman. Thank you, Mr. Chairman. In defense of my own 
political science degree, it gives you options. Law school----
    The Chairman. Yes, but you became an attorney, so you went 
downhill from there.
    Mr. Huffman. You have law school or unemployment, so it 
gives you options.
    All right, Ms. Goldfuss, welcome. My friend from Arkansas 
raises some interesting points. He is certainly right, that 
these catastrophic wildfires that we are seeing more and more 
in the West are not helping with climate change, they are 
contributing to the problem.
    But even though those questions were posed to you in an 
adversarial manner, I think he is helping make the case for you 
here, because, if he is correct--and he may be--that prudent 
forest treatments can reduce the prevalence of those fires and, 
therefore, the greenhouse gas-inducing emissions, then 
considering those climate impacts or benefits as part of a NEPA 
process ought to be a good thing in the NEPA review of those 
plans. Wouldn't you agree?
    Ms. Goldfuss. I would agree.
    Mr. Huffman. OK. So I actually appreciate the point. I 
think it underscores the fact that we need to look 
comprehensively at all impacts, including climate impacts and 
benefits to the various things that our Federal Government 
does. That is what NEPA is all about.
    Mr. McClintock certainly gave us some interesting rhetoric 
on ice ages and climate change. Just when you thought a 
previous ice age had extinguished all the dinosaurs, we heard 
some pretty incredible climate denial just now. And that, 
unfortunately, is the prevailing view in today's Republican 
party. So you know this already, but I just want to welcome you 
to this bubble of climate denial that you have walked into 
today.
    Mr. LaMalfa. Mr. Chairman? Can we ask the Members to not be 
so personal in their comments on using words like ``rhetoric'' 
when Members bring things up that might be scientifically 
based, and just keep the tone to something less personal, sir?
    The Chairman. Thank you. I didn't know who was talking 
there, but I am sorry, there is a time you are supposed to ask 
that question----
    Mr. Huffman. Reclaiming my time?
    The Chairman. Mr. Huffman, it is your time, please.
    Mr. Huffman. Thank you. And I hope it will be adjusted to 
reflect what was just lost.
    The point, Ms. Goldfuss, is that this climate denial 
philosophy you are hearing today is completely isolated from 
the rest of the world. And you do know this, but it is worth 
mentioning--every other conservative party in the world 
acknowledges climate change, and supports action plans and 
national and international negotiations and responses to 
address it. That is why the conservative parties even who 
believe in liberty and do not like regulation and do not like 
lots of government in every other democracy in the world 
acknowledge climate change and support international 
agreements. They have signed on to the Paris Agreement, and yet 
we are going the other direction with our Grand Old Party these 
days, unfortunately, as you have heard today.
    Just 8 years ago, the party platform acknowledged climate 
change and called for a transition to clean energy. Fast 
forward to 2016 and we have a nominee that calls it a hoax and 
a platform that rejects not just the Paris Agreement, but its 
goals, and declares that coal is clean energy.
    So, we are sort of in a netherworld on this issue of 
climate change here today, isolated literally from the rest of 
the world. Even Vladimir Putin's Russia, even Castro's Cuba, 
even China, they have all stepped forward because this climate 
change science and the imperative of doing something about it 
is so obvious to absolutely everyone in the world, including 
conservatives, except for the folks that you are hearing from 
here today and some of their colleagues.
    So, I think that context is important. What you are doing 
is absolutely essential. We should just make sure to remind 
people why you are doing it. This is not part of some radical, 
costly agenda. In fact, a lot of court cases have looked at 
NEPA and concluded that you have to examine the impacts of 
climate change. Is that correct?
    Would you tell us about the state of those court decisions 
that actually bind Federal agencies to go through a process 
like this?
    Ms. Goldfuss. That is right. By our research, there have 
been 90 different cases that have raised climate change. The 
trend out of those cases was for climate change to be 
considered. Certainly there are cases that went the other way. 
What that creates for the 25 agencies that are involved in 
those various cases is confusion about what to do.
    This guidance answers that question. It is our 
recommendation that they quantify greenhouse gas emissions as a 
way to account for their climate change impacts.
    Mr. Huffman. All right, thank you. So, binding decisions of 
Federal courts, overwhelming consensus of the world's 
scientific community, and the view of the rest of the world, 
you are doing the right thing, Ms. Goldfuss. Keep it up.
    The Chairman. Let me ask all Members here, we have a long 
time between now and the end of the year and a lame duck 
session--just make sure you self-regulate what you say, and the 
comments that you make vis-a-vis anybody else here in the room. 
Mellow them out, unless we are talking about the 
Administration. Then go after the jugular. Is that OK?
    [Laughter.]
    Ms. Goldfuss. Bring it.
    The Chairman. OK?
    Ms. Goldfuss. OK.
    The Chairman. Mr. Newhouse, you are recognized.
    Mr. Newhouse. Welcome, Ms. Goldfuss, I appreciate your 
coming with us this morning. I appreciate the opportunity to 
have this hearing, and just for full disclosure, I am an 
agriculture-economics major. I hold a degree from Washington 
State University.
    But I guess it was inevitable that this would devolve into 
an argument about climate change, unfortunately. I think the 
focus of the hearing is the impacts of your final guidance on a 
host of American economic energy-related industries and 
activities. And so we will leave some of the previous comments 
alone for now.
    But certainly the climate is changing. I think everyone 
recognizes that there is always change, and we are looking at 
ways that we can solve what I think is not a mutually exclusive 
equation, that we can have both economic development, as well 
as being responsible. So, I appreciate you coming and answering 
some questions about the final guidance itself.
    So, a question. Just weeks after this final guidance was 
issued, litigation was introduced against BLM's oil and gas 
leasing program, actually citing the document. You have made 
several statements today that this is not a regulation, it is 
not legally enforceable, it is voluntary--so how can the 
Administration maintain that it is merely a voluntary guide for 
agencies, and should be exempt from the rulemaking process, 
when it was immediately used as a tool for obstruction by 
environmental organizations?
    Ms. Goldfuss. Well, guidance has been part of policymaking 
for a long time. And yes, NEPA guidance has withstood many 
different court cases, and it comes out in different ways. But 
it is still standing that this is not a regulation, it is not 
legally binding. And although it may be referenced in courts, 
it is up to agencies to make these decisions within the bounds 
of their own statutes.
    There is nothing here that says that you have to do this 
guidance. In fact, there are many ways that agencies may 
determine this is not appropriate, and our guidance would be 
that they tell us why it is not appropriate. But the courts 
will then determine whether or not those reviews were conducted 
appropriately.
    Mr. Newhouse. So, by setting the bar, at least if they do 
not follow the guidance, because it is voluntary, they have to 
justify beyond a shadow of a doubt in a court of law whether or 
not they were right in ignoring the guidance.
    Some people have raised concerns that this final guidance 
does not provide for a fully inclusive cost-benefit analysis of 
potential energy projects. For example, a newly built natural 
gas pipeline or a hydro-electric dam could replace a less-
efficient source of energy, and a less reliable method of 
transportation, thus having a positive and short-term as well 
as long-term impact on the environment.
    So, how does the suggested life cycle analysis of a long-
term infrastructure project take into account the positive 
benefits of the project? If we are trying to address the 
cumulative impacts on climate, why not factor in all benefits?
    Ms. Goldfuss. Thank you, Congressman, for that question. 
There are two parts there. The cost-benefit analysis is 
specifically not part of NEPA reviews, as we discussed before, 
but in terms of looking at the cumulative impacts you are 
referencing, the regulations for NEPA, do lay out a framework 
of direct, indirect, and cumulative impacts.
    Those cumulative impacts are bound by what can be 
reasonably foreseen in the future to be those impacts. Then, 
with regard to this guidance, the tools that we have made 
available, and that the agencies are familiar with, they will 
be able to use those to evaluate what the cumulative impacts of 
the greenhouse gas emissions may be.
    So, this is not about life-cycle analysis. That is 
different than cumulative impacts that are bound by what is 
reasonably foreseeable as our regulations already lay out.
    Mr. Newhouse. OK, I think I understand. I appreciate that.
    And in the short time remaining, Mr. Chairman, I yield back 
my time.
    The Chairman. Thank you. And, Dan, I apologize profusely. 
Look, all I will tell you is that one time I wanted to talk to 
Conway ahead of me. I leaned over and said, ``Larry, Larry, 
Larry,'' and finally he turned back and said, ``My name is 
Mike.'' So at least I did not go that far with you.
    Mr. Newhouse. I appreciate that. I am not Larry, by the 
way, so that is good.
    The Chairman. But you are Mike.
    [Laughter.]
    The Chairman. I apologize. So we will turn to Mr. Johnson 
next.
    Mr. Grijalva. Mr. Chairman, if I may, there is some 
analysis going on as to the effects of climate change on 
memory.
    [Laughter.]
    Mr. Grijalva. And perhaps that is part of the impact that 
we could study.
    The Chairman. You are not recognized.
    [Laughter.]
    The Chairman. Mr. Lowenthal, it is your turn.
    Dr. Lowenthal. Thank you, Mr. Chair. First, I would like to 
enter into the record a letter that I and 53 of my House 
colleagues sent to seek support of the draft NEPA guidance last 
year. I am pleased that we are holding this hearing on the two 
topics that are very important to my constituents. That is both 
NEPA and also climate change. So I offer that into the record.
    The Chairman. So ordered.
    Dr. Lowenthal. Thank you, Mr. Chair.

    [The information follows:]

                     CONGRESS OF THE UNITED STATES

                          Washington, DC 20515

                                               April 27, 2015      

Ms. Christy Goldfuss
Managing Director
Council on Environmental Quality
730 Jackson Place NW
Washington, DC 20506

    Dear Ms. Goldfuss:

    We write to express our strong support for the Council on 
Environmental Quality's (CEQ) December 2014 draft guidance providing 
federal agencies direction on when and how to consider the effects of 
greenhouse gas (GHG) emissions and climate change in their evaluation 
of all proposed federal actions in accordance with the National 
Environmental Protection Act (NEPA).
    Since the 1970's, NEPA has increased transparency and educated 
federal agencies, Congress, and the public about the environmental 
impacts of proposed federal actions. NEPA ensures that agencies analyze 
the environmental effects of federal actions before decisions are made, 
and provides decision makers with alternatives to mitigate these 
effects.
    Climate change is a fundamental environmental issue, and the 
relation of federal actions to climate change falls squarely within 
NEPA's congressional intent. The concentration of CO<INF>2</INF> in the 
atmosphere has now surpassed 400 ppm. This is the highest atmospheric 
CO<INF>2</INF> concentration in at least 800,000 years. Among other 
effects, increased greenhouse gases in the atmosphere are causing 
global temperatures and sea levels to rise and are threatening many 
aspects of our society--from fisheries to agriculture and from human 
health to national security. In light of the broad environmental 
consequences of greenhouse gas emissions, it is appropriate that 
environmental evaluations required by NEPA should include consideration 
of the ways in which federal actions can exacerbate or be impacted by 
climate change.
    Without imposing new requirements, the proposed guidance will help 
federal agencies comply with NEPA requirements consistently across 
agencies. It will not mandate a particular agency decision or compel 
agencies to limit greenhouse gas emissions, even for projects with high 
levels of greenhouse gas emissions. Instead, it will provide for better 
and more informed federal decisions regarding GHG emissions and the 
effects of climate change consistent with existing NEPA principles.
    The guidance highlights the importance of comparing and disclosing 
potential GHG emissions from various project alternatives, and makes 
clear that projects with GHG emissions below 25,000 metric tons annual 
CO<INF>2</INF>-e do not always warrant quantitative climate change 
analysis.
    Furthermore, CEQ's NEPA guidance directs agencies to account for 
actions that may occur as a predicate to the agency action as well as a 
result of the agency action. We support CEQ's emphasis on the 
importance of considering reasonable mitigation measures to lower GHG 
emissions and appreciate the examples provided of mitigation options 
related to greenhouse gases.
    Finally, in order to put the GHG emissions into context, we propose 
that CEQ direct agencies to consider calculating the climate change 
costs of a project using the social cost of carbon. The social cost of 
carbon is a scientifically-accepted method, developed by a dozen 
federal agencies and offices, for determining the costs of carbon 
pollution. The social cost of carbon provides a meaningful metric, 
beyond tons of CO<INF>2</INF> emissions, for understanding the impact 
of GHG emissions in monetary terms.
    We look forward to working with CEQ to further develop and 
implement the NEPA guidance on when and how federal agencies should 
consider the effects of GHG emissions and climate change in accordance 
with their responsibilities under NEPA. As greenhouse gas 
concentrations in the atmosphere continue to rise, it is imperative 
that federal agencies show leadership and transparency in accounting 
for and reducing the emissions from their actions while also 
considering the impacts that climate change may have on a specific 
project. We will continue to push for comprehensive reforms in Congress 
to decrease emissions across the public and private sectors and support 
ongoing federal initiatives that clean-up our atmosphere.
    Thank you for your leadership on this important matter. We look 
forward to the completion of the final NEPA guidance later this year.

            Sincerely,

                                             Alan Lowenthal

                                           Raul M. Grijalva

                                               Scott Peters

                                               Members of Congress.

[Also signed by the following Members of Congress:]
        Alma S. Adams                 Barbara Lee
        Donald S. Beyer, Jr.          Ted Lieu
        Earl Blumenauer               Zoe Lofgren
        Julia Brownley                Doris O. Matsui
        Lois Capps                    Betty McCollum
        Matt Cartwright               Jim McDermott
        Kathy Castor                  James P. McGovern
        Judy Chu                      Grace F. Napolitano
        Katherine M. Clark            Eleanor Holmes Norton
        Emanuel Cleaver               Chellie Pingree
        Gerald E. Connolly            Mark Pocan
        John Conyers, Jr.             Jared Polis
        Mark DeSaulnier               David E. Price
        Ted Deutch                    Mike Quigley
        Lloyd Doggett                 Bobby L. Rush
        Donna Edwards                 John P. Sarbanes
        Keith Ellison                 Jan Schakowsky
        Anna G. Eshoo                 Adam B. Schiff
        Elizabeth Esty                Robert C. ``Bobby'' Scott
        Sam Farr                      Mike Thompson
        John Garamendi                Paul Tonko
        Michael M. Honda              Niki Tsongas
        Jared Huffman                 Chris Van Hollen
        Steve Israel                  Maxine Waters
        Henry C. ``Hank'' Johnson     Peter Welch
        Jim Langevin

                                 ______
                                 

    Dr. Lowenthal. Before I ask a question, I would like to 
follow up on--I think the discussion is fascinating that my 
colleague from California just gave, that the climate is always 
changing, why are we doing this. And he is right. Global 
average temperatures for the earth do go up and down over time. 
But I would like to point out from the data that it goes up and 
down quite slowly.
    For example, the temperatures rose about 4+ Celsius between 
the last ice age and modern times. Scientists believe that that 
is because of the CO<INF>2</INF> that was released into the 
atmosphere that was released from the oceans. We are talking 
about now tens of thousands of years that the glaciers melted, 
sea level rose, about 120 meters--4 degrees in tens of 
thousands of years.
    Now we are looking at warming that, according to NASA, is 
at least 10 times as fast as the warming that got us out of the 
last ice age. Just in the past century alone we have increased 
the global average temperature by a degree-and-a-half Celsius. 
And unless we take drastic changes, we are on track for 3+ more 
warming by the end of this century. So, we are talking about, 
in two centuries, more change in the climate than took place in 
tens of thousands of years. So let's be clear about the data.
    We know that these changes have happened slowly in the past 
by, as we have studied, the paleoclimate history. But I want to 
remind my clients--I mean my colleagues, not my clients----
    [Laughter.]
    Dr. Lowenthal [continuing]. But maybe my clients, maybe--
that we have invested this civilization we are talking about 
modern infrastructure of trillions of dollars of investments. 
We have built homes, utilities, roads, ports, and so forth, and 
they have been built with the idea that climate and sea level 
rise would be relatively stable.
    So, it makes sense, with this phenomenal investment, which 
was based upon the assumption of a very stable climate and sea 
level, that that has changed right now. And so, the issue is 
how are we going to look at coastal flooding? How is that going 
to affect infrastructure projects in the next 20 to 30 years?
    So, I am asking the Director. How can the effects of 
climate change, like rising sea levels, impact Federal 
projects? We are not only talking about climate, and what our 
actions do to affect climate change, but how does this new 
guidance assist agencies with deciding how to analyze the 
future effects of climate change like sea level rise on 
possible projects? How are we going to deal with that issue?
    Ms. Goldfuss. Congressman, thank you very much for that 
question. As I referenced in the beginning, OMB and the 
President's budget said that we have already spent $357 billion 
on the direct costs of climate change.
    So, it would make sense that, if we have the tools 
available to see what the changes of the environment are going 
to be due to sea level rise, that when we are planning a 30 to 
40, or 50-year project like a bridge or rebuilding a road, or 
even where you might site a particular project, that you would 
take those pieces of information into consideration, so that 
you don't continually rebuild the same bridge over and over 
again at the same level, have it wash out, and then spend 
taxpayer dollars to do it again in, say, 20 years or even less, 
depending on where that project is.
    So, what we recommend through the guidance is that, where 
appropriate, depending on the project, that agencies look at 
not only how their actions or what the contribution to climate 
change will be, but then the changes in the environment that 
might impact that project, or how that project will impact a 
changed environment, is the better way to phrase it. Five 
seconds.
    Dr. Lowenthal. Just checking how much time. I will yield 
back, Mr. Chair. I believe my time has expired.
    The Chairman. Thank you. Mr. Graves, you came in late. Are 
you prepared? Are you ready?
    Mr. Graves of Louisiana. Yes, sir.
    The Chairman. You are recognized.
    Mr. Graves of Louisiana. Thank you, Mr. Chairman, I 
appreciate it. I will say, with all the confusion that has gone 
on with the last few speakers, you all aren't making getting 
old look very attractive.
    But look at that, I got to say it without even getting 
caught for it. That was great.
    [Laughter.]
    Mr. Graves of Louisiana. Ms. Goldfuss, thank you for being 
here today. In a previous life, I worked for years on 
resiliency issues, and spent a lot of time working with a very 
diverse group of folks, environmental community, oil and gas 
community, and others, to help them----
    Ms. Goldfuss. I am sorry, I missed it. Where did you say 
you worked?
    Mr. Graves of Louisiana. I worked on resilience issues.
    Ms. Goldfuss. Oh, resilience.
    Mr. Graves of Louisiana. I am from the state of Louisiana, 
and worked on coastal issues. In fact, I worked with a number 
of your predecessors over the years.
    I am struggling with something, I guess, kind of 
thematically about your testimony and some of the things that 
are being discussed here.
    Coastal Louisiana has lost about 1,900 square miles of 
wetlands and some of the most productive ecosystem on this 
entire continent. You sit here and you talk about the social 
cost of carbon, and how we need to be mindful of the long-term 
impacts of the social cost of carbon because you care about the 
environment, you care about humanity, you care about our 
citizens. Yet the Administration is effectively doing nothing 
but throwing up roadblocks in our efforts to actually restore 
wetlands and our efforts to actually improve the resiliency of 
the community, improve or maintain the ecological productivity 
of the coastal ecosystem in Louisiana.
    So, I am having trouble giving you credibility, to be 
honest with you, that you are here saying that, look, we are 
doing this because this is the right thing for society, this is 
the right thing for our environment, the right thing for our 
community, yet the greatest cause of land loss in coastal 
Louisiana is the Federal Government, the U.S. Army Corps of 
Engineers.
    I have repeatedly, repeatedly, gone to CEQ and said, ``You 
all need to do something.'' This isn't something that is going 
to happen in 50 to 100 years. Ms. Goldfuss, let's be honest. 
You can be wildly successful in your efforts, wildly successful 
in your efforts, and you are not going to see any reduction in 
sea level rise for 50, 100 years. And so, we have problems 
right now.
    As I understand, my friends from California referenced 
perhaps--I am not sure what they were talking about, I was not 
here--but some of the communities in Louisiana that right now 
are facing the need to have to leave, communities that have 
been around for hundreds of years. Can you help explain that to 
me, sort of this whole credibility gap that I see?
    Ms. Goldfuss. Sure. First of all, I have repeatedly said 
the social cost of carbon is a cost-benefit analysis tool used 
in regulation. That is not what we are talking about today. The 
climate guidance under NEPA does not require cost-benefit 
analysis, and it is only referenced in the guidance as an 
option available to decision makers, if they decide cost-
benefit analysis is appropriate for their review.
    Mr. Graves of Louisiana. I have 2 minutes left.
    Ms. Goldfuss. So----
    Mr. Graves of Louisiana. Don't eat all my time. I have more 
questions.
    Ms. Goldfuss. All right. Let me just say on wetlands, 
because I do think we share your concern, and are working 
diligently at CEQ to address some of the problems that you have 
raised--we put out a Presidential Memorandum that was focused 
specifically on bringing private investment to some of these 
problems, and lifting the standard of no net loss of wetlands 
in this country.
    Mr. Graves of Louisiana. But you are talking about private 
investment. If I destroyed something, you would come after me. 
And if I destroyed wetlands, you know who would come after me? 
The U.S. Army Corps of Engineers, yet they are the greatest 
cause of loss to coastal wetlands in the Nation, and nothing is 
being done about it. I don't understand that hypocrisy. I don't 
understand at all.
    Let me pivot and ask another question. When I recall what 
the Administration did on the Keystone XL Pipeline, part of the 
justification for rejecting the pipeline was because there was 
a greenhouse gas analysis that was done to determine it was 
going to contribute to emissions of greenhouse gas. That was 
part of the justification for shutting it down.
    Let me ask you this. When the Iran nuclear deal was done, 
was there a social cost of carbon? Was there an analysis on 
what----
    Ms. Goldfuss. Excuse me. When what was done?
    Mr. Graves of Louisiana. The Iran nuclear agreement, which 
included lifting sanctions for Iran, I believe the fourth-
largest oil reserves in the world, and allowing them to access 
global markets. Was there a greenhouse gas analysis that was 
done there to determine the increase in emissions that would 
result from that? And I would love to see the comparison of 
that to the Keystone XL Pipeline, in terms of the additional 
oil that would be put on global markets.
    Ms. Goldfuss. I am afraid that might have to be a different 
hearing. You would have to ask Secretary Kerry.
    Mr. Graves of Louisiana. But doesn't that seem a little bit 
strange, that you would blame Keystone XL Pipeline on 
greenhouse gas emissions, yet for the Iran nuclear agreement 
you have the fourth-largest reserves of the world--if I recall 
correctly--of oil, hundreds of millions of barrels of oil 
dumped on the markets? Do you see any hypocrisy there at all?
    Ms. Goldfuss. Those are, again, both State Department 
decisions.
    Mr. Graves of Louisiana. Yes, but you are CEQ. You all are 
the ones that are supposed to be addressing these issues from 
an environmental perspective.
    The last question is this. The Department of the Interior 
recently came out with some offshore air emissions proposal. 
And under----
    The Chairman. Give me a break here. You can do it if you 
can do it in 2 seconds.
    Mr. Graves of Louisiana. All right. Amen.
    [Laughter.]
    The Chairman. Mr. Gallego.
    Mr. Gallego. Thank you, Mr. Chair.
    Ms. Goldfuss, thank you for being here and for your 
tireless work on these issues.
    Many see NEPA as a bedrock environmental statute aiming to 
make smart decisions while we develop our infrastructure, and I 
agree. However, I also see NEPA as a statute that protects the 
public's voice and its power to protect their health and safety 
as we develop their infrastructure.
    As a Latino who represents a heavily Latino district, I 
know firsthand how critical it is to have a process in place 
that allows communities like mine, communities that have 
historically been marginalized and lack a voice in policymaking 
when it comes to projects in their backyards, a role and 
opportunity for input.
    So, I see an attack on NEPA as an attack on the public 
voice. Anything that makes NEPA more consistent and reliable 
strengthens that public voice.
    Can you tell us how this NEPA guidance will help the public 
have more influence over what happens in their communities?
    Ms. Goldfuss. Congressman Gallego, great question. One of 
the main points of NEPA, as Congress brilliantly wrote it, was 
both to look at the environmental impacts of Federal 
decisionmaking, but then also to allow the public to see those 
environmental impacts. And we hear frequently from 
environmental justice communities and then also from 
communities that have the least but are bearing the biggest 
burden of climate change impacts. Louisiana is one of the 
states that has some of the biggest problems there, as is 
Alaska.
    The enormity of this problem is such that, having the 
information for those communities about how our decisions, as 
the Federal Government, could make their situation worse, is 
the power of the people, basically, to see what our decisions 
are. That is the transparency. By asking agencies to share what 
the greenhouse gas emissions of their decisionmaking are, that 
allows the public to see how each of our decisions contributes 
to this overall problem.
    So, this is the tool to allow the public the window into 
the decisions we make, and how the problem of climate change is 
either helped or burdened.
    Mr. Gallego. Excellent. Thank you, I yield back.
    The Chairman. Mr. Hice.
    Dr. Hice. Thank you, Mr. Chairman. And just in the context 
of full disclosure, I have three degrees in theology, so that 
is where I have come from. And this discussion immediately took 
me there, in light of some other thoughts. And going back to 
our founders, who recognized the creator, who gave us certain 
inalienable rights, is the same creator who made clear in 
Genesis 8 that, as long as the earth endures, there will be 
seed time and harvest, cold and heat, summer and winter, day 
and night, and that those will not cease.
    So, within that context, we certainly need to be good 
stewards of this earth. I think we all understand that. We are 
responsible to do so.
    When I was in high school, the big talk was that we were 
entering into an ice age again, and then it all turned to 
global warming several years later. Now, we are talking about 
climate change. I think we all recognize the climate changes, 
and we need to be good stewards of this earth.
    But I want to go back to some things that came up 
specifically in the guidance. I am a bit unsure as to what the 
council would consider a significant level of greenhouse gas 
emissions. What is the bar that to pass is dangerous?
    Ms. Goldfuss. We have not set a significant level. We have 
instead asked agencies to rely on their expertise and, if the 
tools and methodologies and data are available, then they 
should do it.
    So, to say one level is more significant than another was 
problematic. In our initial analysis, we heard two different 
competing factors around the 25,000 threshold we set 
previously, which, one, was that some agencies confused that as 
a threshold for actually doing an EIS, which was not the 
intention, and then also the very practical concern that if you 
are determining whether or not you are above or below 25,000 
metric tons of CO<INF>2</INF> equivalent, then you are already 
quantifying.
    Dr. Hice. OK, so we have agencies----
    Ms. Goldfuss. So, rather than setting a threshold, yes----
    Dr. Hice [continuing]. That are facing an arbitrary--they 
don't know what to--are any of them even going to respond to 
this? I mean we have----
    Ms. Goldfuss. The guidance is quite clear, that if the 
tools and methodologies are available, our recommendation is to 
quantify.
    Dr. Hice. To do what they want. OK, so we have the 
quantitative and qualitative.
    Ms. Goldfuss. Correct.
    Dr. Hice. Taxpayers paying for both of this. And yet, if 
there is no standard that says--I mean this is simple math--if 
you go beyond this level, you are getting into a dangerous 
zone. And yet there is no level that says so. So these agencies 
have nothing to work with.
    How do you deal with quantitative and qualitative, when we 
are not even dealing with simple math?
    Ms. Goldfuss. I would argue that we have taken out the 
confusion around the particular threshold that would have 
required people to quantify anyway, and instead say if you have 
the capacity, the tools, the methodologies, and the data to 
quantify your greenhouse gas emissions, we would recommend that 
you do so.
    Dr. Hice. So everyone does is differently----
    Ms. Goldfuss. And if they don't----
    Dr. Hice. That doesn't do away with the confusion. That 
adds to it. It gives everyone a choice to determine themselves.
    Ms. Goldfuss. That they should quantify their greenhouse 
gas emissions. That is what it says. If they are not able to, 
then they have to reference the facts that the methodologies 
and the tools are not available----
    Dr. Hice. How do you deal with the Supreme Court case, 
public citizen case, that says agencies cannot be responsible 
for areas for which they have no authority, and yet we have the 
Department of Agriculture and Interior, and so forth. They 
don't have any authority to determine these issues that you are 
asking them to do.
    Ms. Goldfuss. Once again, guidance in the construct of the 
regulations that are laid out by NEPA that look at direct, 
indirect, and cumulative impacts, that is also, once again, 
bound by a rule of reason. So, what are the reasonably 
foreseeable impacts of the action? Those are the tools and 
methodologies that we are referencing.
    So, it is not endless research. We even say to agencies, 
``Do not conduct new research''----
    Dr. Hice. But that contradicts what the Supreme Court has 
said.
    Ms. Goldfuss. No, because this would be within their 
statutory authority to look at the reasonably foreseeable 
impacts of the decision that they are making. And that is long-
standing NEPA practice.
    Dr. Hice. Thank you, Mr. Chairman.
    The Chairman. Thank you. Lucky you. I know you have a 
timeline when you have to get out of here, and we will get you 
out in plenty of time, because I am the last set of questions--
kind of questions.
    First of all, I appreciate you being here. I appreciate 
this voluntary guidance, a full employment for attorneys act. I 
am making the assumption that CEQ, when you were doing this, 
coming up with this guidance, tried to use courts' 
interpretations of the limitations on NEPA as part of your 
analysis and recommendations. You looked at that, I am 
assuming.
    Ms. Goldfuss. Certainly.
    The Chairman. OK. So let's assume I am the evil oil and gas 
company that Mr. Grijalva wants me to be. And I want to get an 
approval for a lease on Federal lands. Currently, NEPA analysis 
would have me to quantify or qualify the greenhouse gas 
emissions from the drilling activity over the course of the 
lease. That is correct, right?
    Ms. Goldfuss. Correct.
    The Chairman. But under----
    Ms. Goldfuss. It wouldn't recommend.
    The Chairman [continuing]. Your guidances that you have in 
here, the NEPA analysis would now also have to consider the 
greenhouse gas emissions from transportation of the resource, 
combustion of the emission at either the power plant or 
refinery, and if the product is exported, the combustion at the 
end use, even if it is a foreign country.
    Therefore, under the guidance, it requires inclusions of 
effects of greenhouse gas emissions from users of the resource 
that are beyond the control of the permitting agency. The 
problem now comes----
    Ms. Goldfuss. The reasonably foreseeable impacts.
    The Chairman. Just a minute, let me finish. There is no 
question mark yet.
    The problem comes in here that the Supreme Court's 
precedent says that where an agency has no ability to prevent a 
certain effect due to its statutory authority over the relevant 
actions, the agency cannot be considered a legally relevant 
cause of the effect, which essentially means that indirect 
effects cannot be considered if the agency cannot control them.
    But that is not what your guidance actually says. You are 
familiar, I am assuming--well, that is a stupid question--OMB 
circular A4, whether you are familiar or not with that, does 
require a 7 percent discount, and it does require that domestic 
impacts are given. And if there is a global impact, that has to 
be considered separately from the domestic impacts.
    But the problem is the social cost of carbon, which you put 
as one of the other options that companies can use as they are 
going through NEPA, does not require either the 7 percent 
discount rate or, if it is required, it does not have to list 
domestic costs separately from global costs. So if there is a 
final decision on this using the OMB cost, it is going to be at 
variance with OMB Circular A4, which is at variance with the 
social cost of carbon that is given as one of the options, 
which ultimately means the end result is lawsuit time.
    See, once somebody has responsibility to do something, it 
does not necessarily mean they have the authority to do it. You 
do not have the authority to do this. This is why you 
repeatedly say this is all voluntary. But it is voluntary that 
everyone simply has to do. If not, the lawsuits will be there.
    And, once again, if a court uses your voluntary guidance as 
an issue of what somebody has to do, does that not become de 
facto enforcement of what takes place?
    Ms. Goldfuss. Is that my question?
    The Chairman. Yes or no, go ahead.
    Ms. Goldfuss. No, we do not see it that way.
    The Chairman. Well, OK. Then you are seeing it wrong, 
because, unfortunately, it already happened. Wild Earth 
Guardians has already sued BLM on this particular issue. The 
amount of lawsuits are going to increase because of this. It 
may be voluntary, but it isn't voluntary. Everyone would still 
have to do it. And once the courts use this as a rationale and 
a reason, that becomes the de facto responsibility that has to 
be there. That is why this is such a dangerous and difficult 
approach, unless you are an attorney, in which case this is 
full employment for the rest of your life-cycle.
    Now, let me----
    Ms. Goldfuss. The courts were already addressing this 
issue. So, either way, it was going to be----
    The Chairman. No, no, no.
    Ms. Goldfuss [continuing]. Resolved there.
    The Chairman. You have exacerbated the problem. That is why 
I use that old Rumpole of the Bailey line. Horace Rumpole did 
not have to obey his wife, but he knew he had to obey her. That 
is why he always referred to her as ``She Who Must Be Obeyed.''
    That is what this silly guidance is--what has to be obeyed. 
And you know what will be the result if one does not, even 
though your agency does not have the legal ability to enforce 
it. It is not enforceable, it is voluntary, unless somebody 
tries to do it. You have given all the options out to the other 
groups now to make sure that if they don't do it, there is 
going to be a lawsuit, so they better do it, because it has to 
be obeyed. It is not your responsibility, it is not your 
authority, but you did it anyway, and that is why I object to 
it.
    With that, I also want to thank you very much for sitting 
here with us for over an hour. I appreciate your time. You have 
had to answer every question, because there is no one to share 
the responsibility with you. But then you did the guidance, so 
it is your own fault.
    Ms. Goldfuss. Thank you, Mr. Chairman.
    The Chairman. But I do appreciate you being here. And with 
that, if there is no other business--actually, I have 
statements to say here--but there is a rule that says our 
Committee Record is open. If anyone has other questions, we 
will be sending them to you. We ask you to respond to those in 
the appropriate amount of time. You know the drill we go 
through.
    And if there is no other business, we got you out of here 
on time.
    Ms. Goldfuss. That is appreciated. Thank you.
    The Chairman. Thank you for being here, and this committee 
will stand adjourned.

    [Whereupon, at 11:17 a.m., the committee was adjourned.]

                                 [all]
</pre></body></html>
